No. ______

In the Supreme Court of the United States
STATE OF WEST VIRGINIA, ET AL.,
Petitioners,
V.

U.S ENVIRONMENTAL PROTECTION AGENCY
AND MICHAEL REGAN, ADMINISTRATOR OF THE
U.S. ENVIRONMENTAL PROTECTION AGENCY,
Respondents.
——————
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5 and the April 15, 2020 Order of this Court,
I hereby certify that the Petition for Writ of Certiorari in West Virginia v. U.S.
Environmental Protection Agency, No. 20-____, was served via electronic mail on all
parties required, with paper copies provided by commercial common carrier upon request:
Elizabeth B. Prelogar
Acting Solicitor General
DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001
(202) 514-2217
supremectbriefs@usdoj.gov

Counsel for U.S. Environmental
Protection Agency and Michael Regan,
Administrator of the U.S. Environmental
Protection Agency

Benjamin Carlisle
Meghan Greenfield
U.S. DEPARTMENT OF JUSTICE
ENVIRONMENT AND NATURAL
RESOURCES DIVISION
PO Box 7611, Ben Franklin Station
Washington, DC 20044-7415
(202) 514-9771
benjamin.carlisle@usdoj.gov
meghan.greenfield@usdoj.gov
Counsel for U.S. Environmental
Protection Agency and Michael Regan,
Administrator of the U.S. Environmental
Protection Agency

Intervenors and Petitioners:

David Michael Flannery
Amy M. Smith
STEPTOE & JOHNSON PLLC
P.O. Box 1588
Charleston, WV 25326
(304) 353-8000
dave.flannery@steptoe-johnson.com
Amy.Smith@steptoe-johnson.com

Elbert Lin
F. William Brownell
HUNTON ANDREWS KURTH LLP
Riverfront Plaza, East Tower
951 East Byrd Street
Richmond, VA 23219
(804) 788-7202
ELin@hunton.com
bbrownell@HuntonAK.com

Counsel for AEP Generating Company,
AEP Generation Resources Inc.,
Appalachian Power Company, Indiana
Michigan Power Company, Kentucky
Power Company, Public Service Company
of Oklahoma, Southwestern Electric Power
Company, Wheeling Power Company,
Indiana Energy Association, and Indiana
Utility Group

Counsel for America’s Power

Scott Allen Keller
Jeremy Evan Maltz
BAKER BOTTS LLP
700 K Street, NW
Washington, DC 20001-5692
(202) 639-7700
scott.keller@bakerbotts.com
jeremy.maltz@bakerbotts.com

John David Lazzaretti
John A. Rego
SQUIRE PATTON BOGGS (US) LLP
4900 Key Tower
127 Public Square
Cleveland, OH 44114-1304
(216) 479-8350
john.lazzaretti@squirepb.com
jrego@beneschlaw.com

Counsel for Chamber of Commerce of the
United States of America

Counsel for Murray Energy
Corporation

Carroll Wade McGuffey, III
TROUTMAN PEPPER HAMILTON
SANDERS LLP
600 Peachtree Street, NE
Suite 3000
Atlanta, GA 30308-2216
(404) 885-3698
mack.mcguffey@troutman.com

Thomas Allen Lorenzen
CROWELL & MORING LLP
1001 Pennsylvania Avenue, NW
Washington, DC 20004-2595
(202) 624-2789
tlorenzen@crowell.com

Counsel for National Mining Association

Counsel for National Rural Electric
Cooperative Association

Mark W. DeLaquil
BAKER & HOSTETLER LLP
Washington Square
1050 Connecticut Avenue, NW
Suite 1100
Washington, DC 20036-5304
(202) 861-1500
mdelaquil@bakerlaw.com

Emily Church Schilling
HOLLAND & HART, LLP
901 K Street, NW, Suite 850
Washington, DC 20001
(202) 654-6922
ecschilling@hollandhart.com

Counsel for Westmoreland Mining
Holdings LLC

Counsel for Basin Electric Power
Cooperative

Joseph Anthony Scalfani
OFFICE OF MISSISSIPPI GOVERNOR
PHIL BRYANT
PO Box 139
Jackson, MS 39205
(601) 576-2807
Joseph.Sclafani@governor.ms.gov

Angela Jean Levin
TROUTMAN PEPPER HAMILTON
SANDERS LLP
Three Embarcadero Center, Suite 800
San Francisco, CA 94111
(415) 477-5700
angela.levin@troutmansanders.com

Counsel for Phil Bryant, Governor of the
State of Mississippi

Counsel for Georgia Power Company

William Daniel Booth
MICHAEL BEST & FRIEDRICH, LLP
1000 Maine Avenue, SW, Suite 400
Washington, DC 20024
(202) 747-9658
wdbooth@michaelbest.com

Michael A. Zody
Jacob Santini
PARSONS BEHLE & LATIMER
201 South Main Street
Suite 1800
Salt Lake City, UT 84111
(801) 532-1234
mzody@parsonsbehle.com
jsantini@parsonsbehle.com

Counsel for Mississippi Public Service
Commission

Counsel for Nevada Gold Mines LLC
and Nevada Gold Energy LLC

Yaakov M. Roth
Stephen J. Petrany
JONES DAY
51 Louisiana Ave., NW
Washington, D.C. 20001
(202) 879-3939
yroth@jonesday.com

C. Grady Moore, III
BALCH & BINGHAM LLP
1901 6th Avenue North, Suite 1500
Birmingham, AL 35201
(205) 251-8100
gmoore@balch.com

Counsel for North American Coal
Corporation

Counsel for Powersouth Energy
Cooperative

Edmund Gerard LaCour, Jr.
OFFICE OF THE ATTORNEY GENERAL
501 Washington Avenue
Montgomery, AL 36130
(334) 353-2196
elacour@ago.state.al.us

Treg R. Taylor
OFFICE OF THE ATTORNEY GENERAL
1031 West 4th Avenue, Suite 200
Anchorage, AK 99501
(907) 269-5200
ed.sniffen@alaska.gov
attorney.general@alaska.gov

Counsel for State of Alabama
Nicholas J. Bronni
OFFICE OF THE ATTORNEY GENERAL
323 Center Street, Suite 200
Little Rock, AR 72201
(501) 682-6302
nicholas.bronni@arkansasag.gov
Counsel for State of Arkansas

Counsel for State of Alaska
Andrew Pinson
STATE OF GEORGIA DEPARTMENT OF
LAW
40 Capitol Square, SW
Atlanta, GA 30334-1300
(404) 458-3409
apinson@law.ga.gov
Counsel for State of Georgia

Thomas M. Fisher
OFFICE OF THE INDIANA
ATTORNEY GENERAL
Indiana Government Center South
302 West Washington Street, 5th Floor
Indianapolis, IN 46204
(317) 234-6843
tom.fisher@atg.in.gov
Counsel for State of Indiana

Jeffrey Allyn Chanay
OFFICE OF THE KANSAS
ATTORNEY GENERAL
120 SW 10th Avenue, 2nd Floor
Topeka, KS 66612
(785) 296-2215
jeff.chanay@ag.ks.gov
Counsel for State of Kansas

Steven Travis Mayo
OFFICE OF THE ATTORNEY GENERAL
700 Capitol Avenue, Suite 106
Frankfort, KY 40601
(502) 564-2611
travis.mayo@ky.gov

Elizabeth Baker Murrill
LOUISIANA ATTORNEY GENERAL
PO Box 94005
Baton Rouge, LA 70804
(225) 326-6766
murrille@ag.louisiana.gov

Counsel for State of Kentucky, by and
through Governor Matthew G. Bevin

Counsel for State of Louisiana

Dean John Sauer
OFFICE OF THE MISSOURI
ATTORNEY GENERAL
PO Box 899
Jefferson City, MO 65102
(573) 751-8807
john.sauer@ago.mo.gov
Counsel for State of Missouri
Justin D. Lavene
OFFICE OF THE ATTORNEY GENERAL
2115 State Capitol
PO Box 98920
Lincoln, NE 68509-8920
(402) 471-2064
justin.lavene@nebraska.gov
Counsel for State of Nebraska

Jeremiah Langston
OFFICE OF THE ATTORNEY GENERAL
Justice Building
215 North Sanders
Helena, MT 59620-1401
(406) 444-7008
jeremiah.langston@mt.gov
Counsel for State of Montana
Paul Martin Seby
GREENBERG TRAURIG, LLP
1144 15th Street, Suite 3300
Denver, CO 80202
(303) 572-6584
sebyp@gtlaw.com
Counsel for State of North Dakota

Benjamin Michael Flowers
OFFICE OF THE ATTORNEY GENERAL
30 East Broad Street, 17th Floor
Columbus, OH 43215-3428
(614) 728-7511
benjamin.flowers@ohioattorneygeneral.gov

Mithun Mansinghani
OFFICE OF THE ATTORNEY GENERAL
313 N.E. 21st Street
Oklahoma City, OK 73105
(405) 522-4392
mithun.mansinghani@oag.ok.gov

Counsel for State of Ohio

Counsel for State of Oklahoma

James Emory Smith, Jr.
OFFICE OF THE ATTORNEY GENERAL
PO Box 11549
Columbia, SC 29211
(803) 734-3680
esmith@scag.gov

Steven Robert Blair
OFFICE OF THE ATTORNEY GENERAL
1302 East Highway 14, Suite 1
Pierre, SD 57501-8501
(605) 773-3215
steven.blair@state.sd.us

Counsel for State of South Carolina
Counsel for State of South Dakota
Judd Edward Stone II
Kyle D. Hawkins
OFFICE OF THE ATTORNEY GENERAL
P.O. Box 12548
Austin, TX 78711-2548
(512) 936-1700
judd.stone@oag.texas.gov
kyle.hawkins@oag.texas.gov
Counsel for State of Texas

Melissa Ann Holyoak
Parker Douglas
Tyler Richard Green
UTAH STATE CAPITOL COMPLEX
350 North State Street, Suite 230
Salt Lake City, UT 84114-2320
(801) 538-9600
melissaholyoak@agutah.gov
pdouglas@utah.gov
tyler@consovoymccarthy.com
Counsel for State of Utah

James Kaste
OFFICE OF THE ATTORNEY GENERAL
2320 Capitol Avenue
Cheyenne, WY 82002
(307) 777-6946
james.kaste@wyo.gov
Counsel for State of Wyoming

James P. Duffy
Ann Brewster Weeks
CLEAN AIR TASK FORCE
114 State Street, 6th Floor
Boston, MA 02109
(617) 359-4077
jduffy@catf.us
aweeks@catf.us

Elizabeth Jones
CENTER FOR BIOLOGICAL DIVERSITY
660 S. Figueroa Street, Suite 1000
Los Angeles, CA 90017
(213) 785-5400
ljones@biologicaldiversity.org

Counsel for American Lung Association,
American Public Health Association,
Appalachian Mountain Club, Clean Air
Council, Clean Wisconsin, Conservation
Law Foundation, and Minnesota Center
for Environmental Advocacy

Counsel for Center for Biological
Diversity

Brittany E. Wright
CHESAPEAKE BAY FOUNDATION
6 Herndon Avenue
Annapolis, MD 21403
(443) 482-2077
bwright@cbf.org

Kristin Merritt Bronson
CITY AND COUNTY OF DENVER
1437 Bannock Street, Suite 353
Denver, CO 80202
(720) 865-8600
kristin.bronson@denvergov.org

Counsel for Chesapeake Bay Foundation,
Inc.

Counsel for City and County of Denver
Colorado

Debra S. Kalish
Tom Carr
CITY ATTORNEY’S OFFICE
1777 Broadway, 2nd Floor
Boulder, CO 80302
(303) 441-3092
kalishd@bouldercolorado.gov
carrt@bouldercolorado.gov

Benna Ruth Solomon
CORPORATION COUNSEL OF THE CITY OF
CHICAGO, APPEALS DIVISION
30 North LaSalle Street, Suite 800
Chicago, IL 60602
(312) 744-7764
benna.solomon@cityofchicago.org

Counsel for City of Boulder

Counsel for City of Chicago

Michael James Bostrom
LOS ANGELES CITY ATTORNEY’S OFFICE
AFFIRMATIVE LITIGATION DIVISION
200 N. Spring Street, 14th Floor
Los Angeles, CA 90012
(213) 978-1882
michael.bostrom@lacity.org

Christopher Gene King
NEW YORK CITY LAW DEPARTMENT
100 Church Street
New York, NY 10007
(212) 788-1235
cking@law.nyc.gov

Counsel for City of Los Angeles

Counsel for City of New York

Scott Schwarz
CITY OF PHILADELPHIA LAW
DEPARTMENT
One Parkway Building
1515 Arch Street
Philadelphia, PA 19102-1595
(215) 683-5170
scott.schwarz@phila.gov

Thomas Frank Pepe
PEPE & NEMIRE, LLC
1450 Madruga Avenue, Suite 202
Coral Gables, FL 33146
(305) 667-2564
thomaspepe@pepenemire.com

Counsel for City of Philadelphia

Counsel for City of South Miami

Christophe Gagnon Courchesne
David S. Frankel
MASSACHUSETTS OFFICE OF THE
ATTORNEY GENERAL
One Ashburton Place
Boston, MA 02108
(617) 963-2423
christophe.courchesne@state.ma.us
david.frankel@mass.gov

Aimee Diane Thomson
OFFICE OF THE ATTORNEY GENERAL
1600 Arch Street, Suite 300
Philadelphia, PA 19103
(267) 940-6696
athomson@attorneygeneral.gov

Counsel for Commonwealth of
Massachusetts

Counsel for Commonwealth of
Pennsylvania

Paul Kugelman, Jr.
OFFICE OF THE ATTORNEY GENERAL
202 North 9th Street
Richmond, VA 23219
(804) 786-3811
pkugelman@oag.state.va.us

Karl A. Racine
Loren L. AliKhan
OFFICE OF THE ATTORNEY GENERAL
400 6th Street, NW, Suite 8100
Washington, DC 20001
(202) 727-3400
Loren.AliKhan@dc.gov

Counsel for Commonwealth of Virginia

Counsel for District of Columbia

Sean H. Donahue
DONAHUE, GOLDBERG & WEAVER, LLP
1008 Pennsylvania Avenue, SE
Washington, DC 20003
(202) 277-7085
sean@donahuegoldberg.com

Howard Learner
ENVIRONMENTAL LAW & POLICY CENTER
35 E. Wacker Drive, Suite 1600
Chicago, IL 60601
(312) 673-6500
hlearner@elpc.org

Counsel for Environmental Defense
Fund

Counsel for Environmental Law and
Policy Center

Melissa Joy Lynch
David D. Doniger
NATURAL RESOURCES DEFENSE
COUNCIL
1152 15th Street, NW, Suite 300
Washington, DC 20005
(202) 717-8296
llynch@nrdc.org
ddoniger@nrdc.org

Joanne Marie Spalding
SIERRA CLUB
2101 Webster Street, Suite 1300
Oakland, CA 94612
(415) 977-5725
joanne.spalding@sierraclub.org

Counsel for Natural Resources Defense
Council

Counsel for Sierra Club

Timothy Eugene Sullivan
Robert William Byrne
OFFICE OF THE ATTORNEY GENERAL
1515 Clay Street, PO Box 70550
Oakland, CA 94612-0550
(510) 622-4038
timothy.sullivan@doj.ca.gov
Robert.Byrne@doj.ca.gov

Eric Olson
OFFICE OF THE ATTORNEY GENERAL
1300 Broadway
Denver, CO 80203
(720) 508-6548
eric.olson@coag.gov

Counsel for State of California

Counsel for State of Colorado

Scott Norman Koschwitz
Matthew Ivan Levine
OFFICE OF THE ATTORNEY GENERAL
165 Capitol Avenue
Hartford, CT 06106
(860) 808-5250
scott.koschwitz@ct.gov
matthew.levine@ct.gov

Valerie Melissa Edge
DELAWARE DEPARTMENT OF JUSTICE
102 West Water Street
Dover, DE 19904
(302) 257-3219
valerie.edge@delaware.gov

Counsel for State of Connecticut

Counsel for State of Delaware

William F. Cooper
STATE OF HAWAII DEPARTMENT OF THE
ATTORNEY GENERAL
425 Queen Street
Honolulu, HI 96813
(808) 586-1282
Bill.F.Cooper@Hawaii.gov

Daniel Isaac Rottenberg
OFFICE OF THE ATTORNEY GENERAL,
ENVIRONMENTAL BUREAU
69 West Washington Street, Suite 1800
Chicago, IL 60602
(312) 814-3816
drottenberg@atg.state.il.us

Counsel for State of Hawaii

Counsel for State of Illinois

Laura Jensen
OFFICE OF THE ATTORNEY GENERAL
6 State House Station
Augusta, ME 04333-0006
(207) 626-8868
laura.jensen@maine.gov

John B. Howard, Jr.
Joshua Segal
OFFICE OF THE ATTORNEY GENERAL
200 St. Paul Place
Baltimore, MD 21202-2021
(410) 576-6970
jbhoward@oag.state.md.us
jsegal@oag.state.md.us

Counsel for State of Maine

Counsel for State of Maryland

Gillian E. Wener
MICHIGAN DEPARTMENT OF
ATTORNEY GENERAL
P.O. Box 30755
Lansing, MI 48909
(517) 335-7664
wenerg@michigan.gov

Peter Surdo
OFFICE OF THE ATTORNEY GENERAL
Town Square Tower
445 Minnesota Street
St. Paul, MN 55101-2127
(651) 757-1061
peter.surdo@ag.state.mn.us

Counsel for State of Michigan and the
People of the State of Michigan

Counsel for State of Minnesota

Heidi Parry Stern
OFFICE OF THE ATTORNEY GENERAL
555 East Washington Avenue
Suite 3100
Las Vegas, NV 89101
(702) 486-3594
hstern@ag.nv.gov

Lisa Jo Morelli
OFFICE OF THE ATTORNEY GENERAL
PO Box 112
Trenton, NJ 08625-0112
(609) 633-8713
lisa.morelli@dol.lps.state.nj.us

Counsel for State of Nevada

Counsel for State of New Jersey

Anne Minard
OFFICE OF THE ATTORNEY GENERAL
Villagra Building
408 Galisteo Street
Santa Fe, NM 87504
(505) 490-4045
aminard@nmag.gov

Michael J. Myers
Brian Murray Lusignan
Steven Wu
OFFICE OF THE ATTORNEY GENERAL
The Capitol
Albany, NY 12224-0341
(518) 776-2382
michael.myers@ag.ny.gov
Brian.Lusignan@ag.ny.gov
steven.wu@ag.ny.gov

Counsel for State of New Mexico

Counsel for State of New York

Asher Paris Spiller
OFFICE OF THE ATTORNEY GENERAL
PO Box 629
Raleigh, NC 27602
(919) 716-6050
aspiller@ncdoj.gov

Paul Andrew Garrahan
OREGON DEPARTMENT OF JUSTICE
1515 SW Fifth Avenue, Suite 410
Portland, OR 97201
(971) 673-1943
paul.garrahan@doj.state.or.us

Counsel for State of North Carolina

Counsel for State of Oregon

Gregory Stage Schultz
OFFICE OF THE ATTORNEY GENERAL
150 South Main Street
Providence, RI 02903
(401) 274-4400
gschultz@riag.ri.gov

Nicholas Frank Persampieriz
OFFICE OF THE ATTORNEY GENERAL
109 State Street
Montpelier, VT 05609-1001
(802) 828-6902
nick.persampieri@vermont.gov

Counsel for State of Rhode Island

Counsel for State of Vermont

Christopher Huriaux Reitz
Emily C. Nelson
OFFICE OF THE ATTORNEY GENERAL
PO Box 40117
Olympia, WA 98504-0117
(360) 586-4614
chris.reitz@atg.wa.gov
emily.nelson@atg.wa.gov
Counsel for State of Washington

Gabe Johnson-Karp
WISCONSIN DEPARTMENT OF JUSTICE
17 West Main Street
PO Box 7857
Madison, WI 53707-7857
(608) 267-8904
johnsonkarpg@doj.state.wi.us

Eugene Marc Trisko
LAW OFFICES OF EUGENE M. TRISKO
PO Box 330133
Atlantic Beach, FL 32233
(304) 258-1977
emtrisko7@gmail.com

Counsel for State of Wisconsin

Counsel for International Brotherhood of
Boilermakers, Iron Ship Builders,
Blacksmiths, Forgers and Helpers, AFLCIO, International Brotherhood of
Electrical Workers, AFL-CIO, and United
Mine Workers of America, AFL-CIO

Theodore Hadzi-Antich
TEXAS PUBLIC POLICY FOUNDATION
901 Congress Avenue
Austin, TX 78701
(512) 472-2700
tha@texaspolicy.com

David Michael Williamson
WILLIAMSON LAW & POLICY
1850 M Street NW, Suite 840
Washington, DC 20036
(202) 256-6155
maxwilliamson@williamsonlawpolicy.com

Counsel for Robinson Enterprises, Inc.,
Nuckles Oil Company, Inc., doing
business as Merit Oil Company,
Construction Industry Air Quality
Coalition, Liberty Packing Company,
LLC, Dalton Trucking, Inc., Norman
R. Brown, Joanne Brown, Competitive
Enterprise Institute, Texas Public
Policy Foundation

Counsel for Biogenic CO2 Coalition

Jeffery Scott Dennis
ADVANCED ENERGY ECONOMY
1000 Vermont Avenue, NW
Suite 300
Washington, DC 20005
(202) 380-1950
jdennis@aee.net

Eugene Grace
AMERICAN CLEAN POWER ASSOCIATION
1501 M Street, NW
Washington, DC 20005
(202) 383-2500
ggrace@awea.org

Counsel for Advanced Energy
Economy

Counsel for American Clean Power
Association

